U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Gerald Scott v. United States, No. 20-7778

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 31,
2021. The government’s response is now due, after one extension, on June 16, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 16, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7778
SCOTT, GERALD
USA

MATTHEW B. LARSEN
DEPUTY PUBLIC DEFENDER
52 DUANE STREET
NEW YORK, NY 10007
213-894-2911
MATTHEW_LARSEN@FD.ORG
SAMUEL C. LEIFER
WILMERHALE
60 STATE STREET
BOSTON , MA 02109
617-526-6552
SAMUEL.LEIFER@WILMERHALE.COM
617-526-5000(Fax)

